W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-7055

Bernard F. Verrett

Darrel Vannoy

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:

3/8/21

(Type or print) Name Elizabeth Murrill
Mr.
Firm

LA Dept. of Justice

Address

1885 N. Third Street

City & State

Baton Rouge, LA

Phone

225-326-6766

Ms.

Mrs.

Miss

Zip 70802
Email

murrille@ag.louisiana.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Bernard Verrett

